Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No.; (212) 719-0990 Fax No: (212) 398-9253

STATE OF NEW YORK
COUNTY OF NEW YORK

)

) SS

Willie Addison, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18
years of age.
That on 1/15/2020 deponent caused to be served 3 copy(s) of the within
Petition for a Writ of Certiorari
upon the attorneys at the address below, and by the following method:
By Overnight Delivery

By Overnight Delivery

By Overnight Delivery

Joseph V. Willey
Katten Muchin Rosenman LLP
Attorneys for Respondents
575 Madison Avenue
New York, NY 10022
joseph.willey@kattenlaw.com
212.940.7087

Jessica Hu
Assistant United States Attorney
Attorneys For USA
Southern District of New York
86 Chambers Street, 3rd Floor
New York, New York 10007
Tel: (212) 637-2696

Solicitor General of the
United States
Department of Justice
950 Pennsylvania Ave., N. W.,
Room 5616
Washington, DC 20530-0001

Sworn to me this
Wednesday, January 15, 2020
Antoine Victoria Robertson Coston
Notary Public, State of New York
No.01R06286515
Qualified in Nassau County
Commission Expires on 7/29/2021

Case Name: USA, ex rel. Andrew Gelbman v. The City of
New York (3)
Docket/Case No:
Index:

